HHS/OIG-Audit-"Audit of Office of Community Services Disretionary Grant Award Number 90EE0153 Vermont Slauson Economic Development Corporation, Los Angeles, California" (A-09-01-00096)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Office of Community Services Discretionary Grant Award Number
90EE0153 Vermont Slauson Economic Development Corporation, Los Angeles, California,"
(A-09-01-00096)
December 10, 2001
Complete
Text of Report is available in PDF format (6.22 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit of a $500,000
discretionary grant awarded to the Vermont Slauson Economic Development Corporation
(the Corporation) by the Office of Community Services.  The audit was to
determine whether the Corporation (i) achieved the project goals and complied
with the terms and conditions of the grant, and (ii) properly recorded, accounted
for, and reported on Federal funds.  The Corporation did not accomplish
the goals of the grant, which were to develop a commercial building and create
112 permanent jobs.  We also found that the Corporation did not adequately
manage the grant funds in accordance with Federal regulations and the terms
and conditions of the grant.  All of the costs claimed under the grant
were not supported by adequate documentation.  In addition, interest earned
on Federal advances of funds was not returned to the Federal Government.
We recommended that the Corporation refund $95,560 to the Federal Government
and take steps to improve its management and internal controls.